           67$78725< $1' $'0,1,675$7,9(
                 5(63216,%,/,7,(6

7KH ,QVSHFWRU *HQHUDO $FW RI 4<:; +3XEOLF /DZ <80785,/ DV DPHQGHG/ VHWV IRUWK VSHFLILF
UHTXLUHPHQWV IRU VHPLDQQXDO UHSRUWV WR EH PDGH WR WKH &KDLUPDQ IRU WUDQVPLWWDO WR WKH
&RQJUHVV1 $ VHOHFWLRQ RI RWKHU VWDWXWRU\ DQG DGPLQLVWUDWLYH UHSRUWLQJ DQG HQIRUFHPHQW
UHVSRQVLELOLWLHV DQG DXWKRULWLHV DUH OLVWHG EHORZ=

                    2,* $8',7 $1' 0$1$*(0(17 5(9,(:
3XEOLF /DZ +31/1, <:00588   )HGHUDO 0DQDJHUV· )LQDQFLDO ,QWHJULW\ $FW
31/1          <:00698       'HEW &ROOHFWLRQ $FW RI 4<;5
31/1          434008:9      &KLHI )LQDQFLDO 2IILFHUV $FW RI 4<<3
31/1          435007;9      (QHUJ\ 3ROLF\ $FW RI 4<<5
31/1          4360095       *RYHUQPHQW 3HUIRUPDQFH DQG 5HVXOWV $FW RI 4<<6
31/1          43600688      )HGHUDO $FTXLVLWLRQ 6WUHDPOLQLQJ $FW RI 4<<7
31/1          43600689      *RYHUQPHQW 0DQDJHPHQW 5HIRUP $FW RI 4<<7
31/1          43700439      ,QIRUPDWLRQ 7HFKQRORJ\ 0DQDJHPHQW 5HIRUP $FW RI 4<<9
31/1          4370053;      )HGHUDO )LQDQFLDO 0DQDJHPHQW ,PSURYHPHQW $FW RI 4<<9
*HQHUDO $FFRXQWLQJ 2IILFH *RYHUQPHQW $XGLWLQJ 6WDQGDUGV




            &5,0,1$/ $1' &,9,/ ,19(67,*$7,9( $87+25,7,(6
7LWOH 8                     8QLWHG 6WDWHV &RGH/ VHFWLRQ 885D+7,
7LWOH 4;                    8QLWHG 6WDWHV &RGH/ VHFWLRQV RQ FULPH DQG FULPLQDO
                            SURFHGXUHV DV WKH\ SHUWDLQ WR 2,*·V RYHUVLJKW RI GHSDUWPHQWDO
                            SURJUDPV DQG HPSOR\HH PLVFRQGXFW
7LWOH 64                    8QLWHG 6WDWHV &RGH/ VHFWLRQ 6:5< HW VHT1/ WKH )DOVH &ODLPV $FW
                                           7$%/( 2) &217(176

                                                                                                                                             3DJH

&200,66,21·6 723 0$1$*(0(17 &+$//(1*(6 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                                                                  4
 +XPDQ &DSLWDO 0DQDJHPHQW 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                           4
 3HUIRUPDQFH %DVHG 0DQDJHPHQW 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                               5
 )LQDQFLDO 6WDWHPHQWV 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                 5
 ,QIRUPDWLRQ 5HVRXUFHV 0DQDJHPHQW 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                                 6
 ,QIRUPDWLRQ 6HFXULW\ 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1               6

&200,66,21 352),/( 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                          8

7+( 2)),&( 2) ,163(&725 *(1(5$/ 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                                                 :

$8',76 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1    ;
 $XGLW 5HSRUW /LVW 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1            ;
 6XPPDU\ RI 6LJQLILFDQW $XGLWV 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                          <
   5HYLHZ RI WKH &RPPLVVLRQ·V %XGJHW 'HYHORSPHQW DQG $OORFDWLRQ 3URFHVVHV
     :LWK $ &RPSDULVRQ WR )LYH 6HOHFWHG 2WKHU )HGHUDO $JHQFLHV/
     $XGLW 5HSRUW/ 2,*00$500350033 +)HEUXDU\ 5</ 5333, 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                                              <
   $XGLW RI 86,7& )LQDQFLDO 6WDWHPHQWV IRU )LVFDO <HDUV 4<<; DQG 4<<</
     $XGLW 5HSRUW/ 2,*00$500360033 +0DUFK 57/ 5333, 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                                          43
 $XGLW )ROORZ008S 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1            44
   $XGLW RI WKH 86,7& )LQDQFLDO 6WDWHPHQWV IRU )LVFDO <HDUV 4<<: DQG 4<<;/
     $XGLW 5HSRUW/ 2,*0$50370<< +0DUFK 64/ 4<<<, 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                                           44
   (YDOXDWLRQ RI WKH &RPPLVVLRQ·V 3UHSDUDWLRQ IRU WKH <HDU 5333/
     $XGLW 5HSRUW/ 2,* $50360<< +)HEUXDU\ </ 4<<<, 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                                           44
   5HYLHZ RI WKH &RPPLVVLRQ 0HWKRGV 8VHG WR &RPSRVH 3XEOLFDWLRQV/
     $XGLW 5HSRUW/ 2,*0$50350<< +'HFHPEHU 57/ 4<<;, 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                                              44

,163(&7,216 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1            45
  ,QVSHFWLRQ 5HSRUW /LVW 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1               45
  6XPPDU\ RI 6LJQLILFDQW ,QVSHFWLRQV 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                           45
    &RVW %HQHILW $QDO\VLV RI (PSOR\HH 7UDQVSRUWDWLRQ 6XEVLGLHV/
      ,QVSHFWLRQ 5HSRUW/ 2,*00,500350033 +'HFHPEHU 49/ 4<<<, 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                                               45

,19(67,*$7,216 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 46
  6XPPDU\ RI ,QYHVWLJDWLYH $FWLYLW\ 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 46
  :HE 6LWH 'HIDFHPHQW 5HSRUW +'HFHPEHU 43/ 4<<<, 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 46


                                                                          L
                           7$%/( 2) &217(17600&RQWLQXHG

                                                                                                                                       3DJH

27+(5 $&7,9,7,(6 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1            47
 5HJXODWRU\ 5HYLHZ 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1      47
 *HQHUDO $FFRXQWLQJ 2IILFH +*$2, 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                    47
 /LDLVRQ $FWLYLWLHV 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1   48

5(3257,1* 5(48,5(0(176 ,1'(; 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 49

7$%/( 4= 5(32576 :,7+ 48(67,21(' &2676 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 4:

7$%/( 5= 5(32576 :,7+ 5(&200(1'$7,216 7+$7 )81'6 %( 387
 72 %(77(5 86( 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 4;




                                                                      LL
                     &200,66,21·6 723
                  0$1$*(0(17 &+$//(1*(6
7KLV VHFWLRQ RI WKH VHPLDQQXDO UHSRUW KDV EHHQ DGGHG LQ UHVSRQVH WR ILQGLQJV SUHVHQWHG LQ
WKH *$2 UHSRUW ´9LHZV RQ 6HPLDQQXDO 5HSRUWLQJ/µ *$22$,0'0<<0536 +$XJXVW 4<<<,1
*$2 IRXQG WKDW FRQJUHVVLRQDO VWDII DV ZHOO DV PDQDJHPHQW VWDII UHFRPPHQGHG WKDW
,QVSHFWRUV *HQHUDO VHPLDQQXDO UHSRUWV VKRXOG SODFH DGGLWLRQDO HPSKDVLV RQ LGHQWLI\LQJ WRS
PDQDJHPHQW FKDOOHQJHV DQG UHSRUWLQJ RQ DFWLRQV WDNHQ E\ DJHQF\ PDQDJHPHQW WR
LPSOHPHQW 2IILFH RI ,QVSHFWRU *HQHUDO +2,*, UHFRPPHQGDWLRQV1
2XWOLQHG EHORZ DUH WKH ´7RS )LYH 0DQDJHPHQW &KDOOHQJHVµ IDFLQJ WKH ,QWHUQDWLRQDO 7UDGH
&RPPLVVLRQ +&RPPLVVLRQ, DV LGHQWLILHG E\ WKH 2,*1 7KURXJK DXGLWV/ LQVSHFWLRQV DQG RWKHU
DVVLVWDQFH/ WKH 2,* KDV EHHQ SURDFWLYHO\ KHOSLQJ WKH &RPPLVVLRQ LQ DGGUHVVLQJ WKHVH
FKDOOHQJHV1 2,* UHFHQW DFWLYLWLHV UHODWLQJ WR HDFK PDQDJHPHQW FKDOOHQJH DUH VXPPDUL]HG
EHORZ1




                                          41 +XPDQ &DSLWDO 0DQDJHPHQW




+XPDQ FDSLWDO LV WKH DJHQF\·V ODUJHVW UHVRXUFH DQG LWV HIIHFWLYH PDQDJHPHQW SURYLGHV D
FRQWLQXRXV FKDOOHQJH IRU WKH &RPPLVVLRQ1 %HFDXVH RI WKH &RPPLVVLRQ·V XQLTXH PLVVLRQ
DQG IXQFWLRQV/ PDQ\ H[WHUQDO IDFWRUV DIIHFW WKH &RPPLVVLRQ·V ZRUNORDG1 $GGLWLRQDOO\/ WKH
4<<7 DPHQGPHQWV WR WKH DQWLGXPSLQJ DQG FRXQWHUYDLOLQJ GXW\ ODZV KDYH SURJUHVVLYHO\
LQFUHDVHG WKH &RPPLVVLRQ·V ZRUNORDG VWDUWLQJ LQ 4<<<1 $GHTXDWHO\ SUHGLFWLQJ DQG DOLJQLQJ
KXPDQ FDSLWDO UHVRXUFHV WR DGGUHVV WKH &RPPLVVLRQ·V ZRUNORDG SURYLGHV D VLJQLILFDQW
UHVRXUFH PDQDJHPHQW FKDOOHQJH1 $OVR/ )HGHUDO JRYHUQPHQW HPSOR\PHQW VWDWLVWLFV LQGLFDWH
WKH IHGHUDO JRYHUQPHQW LV KHDGLQJ WRZDUGV D KXPDQ FDSLWDO FULVLV EHFDXVH RI WKH VLJQLILFDQW
QXPEHU RI IHGHUDO HPSOR\HHV EHFRPLQJ HOLJLEOH IRU UHWLUHPHQW DQG WKH GLIILFXOW\ LQ UHSODFLQJ
HPSOR\HHV LQ WKH FRPSHWLWLYH MRE PDUNHW1
7KH 2,* LV DQDO\]LQJ H[LVWLQJ GDWD RQ WKH &RPPLVVLRQ·V KXPDQ FDSLWDO1 ,QIRUPDWLRQ
REWDLQHG IURP WKLV DQDO\VLV ZLOO IRUP WKH EDVLV IRU IXWXUH UHYLHZV DQG SURYLGH DVVLVWDQFH
WR WKH &RPPLVVLRQ LQ WKLV DUHD1

                                             4
                                     51 3HUIRUPDQFH %DVHG 0DQDJHPHQW




7KH &RPPLVVLRQ·V LQLWLDO VWHSV LQ LPSOHPHQWLQJ SHUIRUPDQFH EDVHG PDQDJHPHQW KDYH
EHHQ VXFFHVVIXO1 7KH &RPPLVVLRQ VWLOO IDFHV WKH FKDOOHQJH RI FROOHFWLQJ DFFXUDWH RXWFRPH
GDWD/ PHDVXULQJ SURJUHVV/ DQG PDNLQJ SURJUDPPDWLF FKDQJHV1 7KH &RPPLVVLRQ IDFHV WKH
QHHG WR DOLJQ WKH EXGJHW IRUPXODWLRQ SURFHVV ZLWK LWV VWUDWHJLF SODQ> DWWHPSWV WR LQWHJUDWH
WKH WZR LQ WKH )< 5334 EXGJHW MXVWLILFDWLRQ DUH HQFRXUDJLQJ1 7KH &RPPLVVLRQ DOVR QHHGV
WR FRQWLQXH DVVHVVLQJ KRZ LW FDQ LPSURYH PDQDJHPHQW HIIHFWLYHQHVV WKURXJK JUHDWHU
DXWRPDWLRQ DQG LQWHJUDWLRQ RI LWV EXGJHW/ SURFXUHPHQW/ DVVHW PDQDJHPHQW/ DQG RWKHU
ILQDQFLDO PDQDJHPHQW SURFHVVHV1
2,* KDV FRPSOHWHG LQ WKLV SHULRG DQ DXGLW RI WKH &RPPLVVLRQ·V EXGJHW GHYHORSPHQW DQG
DOORFDWLRQ SURFHVV1




                                           61 )LQDQFLDO 6WDWHPHQWV




7KH &RPPLVVLRQ IDFHV D FKDOOHQJH RI PDQDJLQJ LWV ILQDQFLDO UHVRXUFHV FRQVLVWHQW ZLWK WKH
VWDQGDUGV UHTXLUHG IRU DQ XQTXDOLILHG ILQDQFLDO VWDWHPHQWV DXGLW RSLQLRQ LQ OLJKW RI H[LVWLQJ
DQG QHZ IHGHUDO UHTXLUHPHQWV1
'XULQJ WKLV VHPLDQQXDO SHULRG/ 2,* FRPSOHWHG LWV DXGLW RI WKH &RPPLVVLRQ·V )LQDQFLDO
6WDWHPHQWV IRU )LVFDO <HDUV 4<<< DQG 4<<;1 2,* H[SUHVVHG WKH RSLQLRQ WKDW WKH ILQDQFLDO
VWDWHPHQWV SUHVHQW IDLUO\/ LQ DOO PDWHULDO UHVSHFWV/ WKH EDODQFH VKHHWV DQG VWDWHPHQW RI
EXGJHWDU\ UHVRXUFHV RI WKH &RPPLVVLRQ DV RI 6HSWHPEHU 63/ 4<<; DQG 4<<</ DQG WKH UHODWHG
VWDWHPHQWV RI QHW FRVW/ FKDQJHV LQ QHW SRVLWLRQ/ DQG ILQDQFLQJ IRU WKH \HDU HQGHG 6HSWHPEHU
63/ 4<<</ LQ FRQIRUPLW\ ZLWK JHQHUDOO\ DFFHSWHG DFFRXQWLQJ SULQFLSOHV1

                                             5
                                 71 ,QIRUPDWLRQ 5HVRXUFHV 0DQDJHPHQW




5DSLG FKDQJHV LQ LQIRUPDWLRQ WHFKQRORJ\ SUHVHQW HQRUPRXV RSSRUWXQLWLHV IRU LPSURYLQJ
WKH &RPPLVVLRQ·V EXVLQHVV SURFHVVHV DQG LWV LQWHUDFWLRQ ZLWK FXVWRPHUV/ DQG RWKHU
DJHQFLHV DQG &RQJUHVVLRQDO LQWHUHVWV WKDW KDYH LQWHUQDWLRQDO WUDGH UHVSRQVLELOLWLHV1 7KH
&RPPLVVLRQ IDFHV WKH FKDOOHQJH RI HIILFLHQWO\ PDQDJLQJ LQIRUPDWLRQ UHVRXUFHV WR FDSLWDOL]H
RQ WKHVH RSSRUWXQLWLHV1 7KLV UHTXLUHV WKDW WKH &RPPLVVLRQ EH DEOH WR DQWLFLSDWH DQG
PHDVXUH WKH EHQHILWV DIIRUGHG E\ LQIRUPDWLRQ WHFKQRORJ\ VROXWLRQV1

2,* LV FXUUHQWO\ FRPSOHWLQJ DQ DXGLW LQ WKLV DUHD RQ WKH &RPPLVVLRQ·V LPSOHPHQWDWLRQ RI
WKH &OLQJHU0&RKHQ $FW RI 4<<91 7KH UHFRPPHQGDWLRQV LQ WKLV DXGLW ZLOO EH DLPHG DW
DVVLVWLQJ WKH &RPPLVVLRQ LQ DGGUHVVLQJ WKLV PDQDJHPHQW FKDOOHQJH1




                                          81 ,QIRUPDWLRQ 6HFXULW\




0DQDJLQJ WKH VHFXULW\ ULVNV DVVRFLDWHG ZLWK WKH &RPPLVVLRQ·V JURZLQJ UHOLDQFH RQ
LQIRUPDWLRQ WHFKQRORJ\ LV D FRQWLQXLQJ FKDOOHQJH1 ,Q SDUWLFXODU/ WKH &RPPLVVLRQ/ OLNH PDQ\
IHGHUDO DJHQFLHV DQG SULYDWH RUJDQL]DWLRQV/ QHHGV WR ILQG HIILFLHQW ZD\V WR HQVXUH WKDW
LQIRUPDWLRQ VHFXULW\ ULVNV DIIHFWLQJ &RPPLVVLRQ RSHUDWLRQV DUH IXOO\ XQGHUVWRRG DQG
LPSOHPHQW DSSURSULDWH FRQWUROV WR PLWLJDWH WKHVH ULVNV1

7R WKLV HQG/ WKH 2,* UHFHQWO\ SHUIRUPHG VHYHUDO LQVSHFWLRQV DQG LV DFWLYHO\ HQJDJHG LQ
FRQWLQXRXV UHYLHZ RI WKLV DUHD1

                                            6
                                                 8161 ,QWHUQDWLRQDO 7UDGH &RPPLVVLRQ




                                                                                     &KDLUPDQ
                                                                               &200,66,21




    2IILFH RI WKH                                                                                 $GPLQLVWUDWLRQ       2IILFH RI WKH               2IILFH RI        2IILFH RI
                           2SHUDWLRQV                                       2IILFH RI
   $GPLQLVWUDWLYH                                   2IILFH RI WKH                                    2IILFH RI           *HQHUDO                  ,QVSHFWRU          (TXDO
                           2IILFH RI WKH                                    ([WHUQDO
    /DZ -XGJHV                                       6HFUHWDU\                                     WKH 'LUHFWRU         &RXQVHO                    *HQHUDO         (PSOR\PHQW
                             'LUHFWRU                                       5HODWLRQV                                                                              2SSRUWXQLW\
                                                                          7UDGH 5HPHG\
                                                                          $VVLVWDQFH 2IILFH

                                                                                                                                             (PSOR\HH
                                                                                                                                            'HYHORSPHQW



                          2IILFH RI                                     2IILFH RI                   2IILFH RI                                                    2IILFH RI
    2IILFH RI                                      2IILFH RI                                                             2IILFH RI            2IILFH RI
                         ,QGXVWULHV                                   ,QIRUPDWLRQ                   )LQDQFH                                                     )DFLOLWLHV
   (FRQRPLFV                                    ,QYHVWLJDWLRQV                                                          3HUVRQQHO            3XEOLVKLQJ
                                                                        6HUYLFHV                   DQG %XGJHW                                                  0DQDJHPHQW




                         2IILFH RI
                       7DULII $IIDLUV              2IILFH RI
                        DQG 7UDGH               8QIDLU ,PSRUW
                       $JUHHPHQWV               ,QYHVWLJDWLRQV




%XGJHW &RPPLWWHH                                                                                             ,QIRUPDWLRQ 5HVRXUFHV 0DQDJHPHQW 6WHHULQJ &RPPLWWHH +,506&,
   $XWKRULW\= &2:3060375/ GDWHG 82492<8 DQG &2:40:0338/ GDWHG 425:2<<                                            $XWKRULW\= $GP1 2UGHU <7034/ GDWHG 432452<6

                                                                                                             ,QIRUPDWLRQ 6HFXULW\ &RPPLWWHH +,1)26(&,
'LUHFWLYHV 5HYLHZ &RPPLWWHH                                                                                      $XWKRULW\= 'LUHFWLYH 467813/ GDWHG :2642<3
    $XWKRULW\= &2:4080337/ GDWHG :2442<:
                                                                                                             /DERU00DQDJHPHQW 2FFXSDWLRQDO 6DIHW\ DQG +HDOWK &RPPLWWHH
'RFXPHQW ,PDJLQJ 2YHUVLJKW &RPPLWWHH +',2&,                                                                  $XWKRULW\= $GP1 2UGHU <;043/ GDWHG <2492<;/ $GP1 2UGHU <<036/
   $XWKRULW\= $GP1 2UGHU <9039/ GDWHG 62482<9                                                                    GDWHG 5282<</ DQG $GP1 2UGHU <<03;/ GDWHG <25<2<<

([HFXWLYH 5HVRXUFHV %RDUG +(5%,                                                                              /DERU00DQDJHPHQW 3DUWQHUVKLS &RXQFLO
   $XWKRULW\= $GP1 2UGHU <;03;/ GDWHG ;2462<;                                                                   $XWKRULW\= $GP1 2UGHU <<038/ GDWHG 62582<<

,QFHQWLYH $ZDUGV &RPPLWWHH +,$&,                                                                             6WUDWHJLF 3ODQQLQJ &RPPLWWHH +63&,
    $XWKRULW\= $GP1 2UGHU <505:/ GDWHG :252<5 DQG $GP1 2UGHU <:035/ GDWHG 432482<9                               $XWKRULW\= $GP1 2UGHU <;038/ GDWHG 6282<;




                                                                                              7
                        &200,66,21 352),/(
                          KWWS=22ZZZ1XVLWF1JRY
7KH &RPPLVVLRQ LV DQ LQGHSHQGHQW/ TXDVL²MXGLFLDO/ QRQSDUWLVDQ )HGHUDO DJHQF\
HVWDEOLVKHG E\ &RQJUHVV ZLWK EURDG LQYHVWLJDWLYH SRZHUV RQ PDWWHUV RI WUDGH1 7KH PLVVLRQ
RI WKH &RPPLVVLRQ LV WZRIROG= DGPLQLVWHU 8161 WUDGH UHPHG\ ODZV LQ D IDLU DQG REMHFWLYH
PDQQHU> DQG SURYLGH WKH 3UHVLGHQW/ 8161 7UDGH 5HSUHVHQWDWLYH/ DQG WKH &RQJUHVV ZLWK
LQGHSHQGHQW/ TXDOLW\ DGYLFH DQG LQIRUPDWLRQ RQ PDWWHUV RI LQWHUQDWLRQDO WUDGH DQG
FRPSHWLWLYHQHVV1 0DMRU &RPPLVVLRQ DFWLYLWLHV LQFOXGH=
       P ,PSRUW ,QMXU\ ,QYHVWLJDWLRQV07KH &RPPLVVLRQ PDNHV GHWHUPLQDWLRQV LQ D
         YDULHW\ RI LPSRUW LQMXU\ LQYHVWLJDWLRQV/ SULPDULO\ DQWLGXPSLQJ DQG
         FRXQWHUYDLOLQJ GXW\ +$'2&9', LQYHVWLJDWLRQV FRQFHUQLQJ WKH HIIHFWV RI XQIDLUO\
         WUDGHG LPSRUWV RQ D 8161 LQGXVWU\1
       P ,QWHOOHFWXDO 3URSHUW\0%DVHG ,QYHVWLJDWLRQV²7KH &RPPLVVLRQ DGMXGLFDWHV
         FRPSODLQWV EURXJKW E\ GRPHVWLF LQGXVWULHV XQGHU VHFWLRQ 66: RI WKH 7DULII $FW
         RI 4<63 WKDW DOOHJH LQIULQJHPHQW RI 8161 LQWHOOHFWXDO SURSHUW\ ULJKWV DQG RWKHU
         XQIDLU PHWKRGV RI FRPSHWLWLRQ E\ LPSRUWHG JRRGV1
       P 5HVHDUFK²7KH &RPPLVVLRQ·V UHVHDUFK SURJUDP FRQVLVWV RI LWV SUREDEOH
         HFRQRPLF HIIHFWV LQYHVWLJDWLRQV XQGHU VHFWLRQ 464 RI WKH 7DULII $FW RI 4<63>
         DQDO\VLV RI WUDGH DQG FRPSHWLWLYHQHVV LVVXHV XQGHU VHFWLRQ 665> DQG UROH DV D
         ´WKLQN WDQNµ RQ LQWHUQDWLRQDO WUDGH/ H[SORULQJ DQG SURYLGLQJ LQGHSHQGHQW
         DVVHVVPHQWV RQ D ZLGH UDQJH RI HPHUJLQJ WUDGH LVVXHV1
       P 7UDGH ,QIRUPDWLRQ 6HUYLFHV²7KH &RPPLVVLRQ·V WUDGH LQIRUPDWLRQ VHUYLFHV
         LQFOXGH VXFK DFWLYLWLHV DV WUDGH UHPHG\ DVVLVWDQFH> OLEUDU\ VHUYLFHV> OHJLVODWLYH
         UHSRUWV> PDLQWHQDQFH RI WKH +DUPRQL]HG 7DULII 6FKHGXOH> 6FKHGXOH ;;> 8161
         6FKHGXOH RI 6HUYLFHV &RPPLWPHQWV XQGHU WKH *HQHUDO $JUHHPHQW RQ 7DULIIV DQG
         7UDGH2:RUOG 7UDGH 2UJDQL]DWLRQ> SUHSDUDWLRQ RI 8161 VXEPLVVLRQV WR WKH
         ,QWHJUDWHG 'DWDEDVH RI WKH :RUOG 7UDGH 2UJDQL]DWLRQ> DQG FHUWDLQ RWKHU
         LQIRUPDWLRQ JDWKHULQJ/ SURFHVVLQJ/ DQG GLVVHPLQDWLRQ DFWLYLWLHV1
       P 7UDGH 3ROLF\ 6XSSRUW²7KH &RPPLVVLRQ VXSSRUWV WKH IRUPXODWLRQ RI 8161
         WUDGH SROLF\/ SURYLGLQJ REMHFWLYH LQSXW WR ERWK WKH ([HFXWLYH %UDQFK DQG WKH
         &RQJUHVV RQ WKH EDVLV RI WKH GLVWLQFWLYH H[SHUWLVH RI LWV VWDII1




                                           8
7KH &RPPLVVLRQ KDV VL[ &RPPLVVLRQHUV/ DSSRLQWHG E\ WKH 3UHVLGHQW DQG FRQILUPHG E\ WKH
6HQDWH/ ZKR VHUYH RQH WHUP RI QLQH \HDUV/ XQOHVV DSSRLQWHG WR ILOO DQ XQH[SLUHG WHUP1 1R
PRUH WKDQ WKUHH &RPPLVVLRQHUV PD\ EH RI WKH VDPH SROLWLFDO SDUW\1 7KH FXUUHQW
&RPPLVVLRQHUV DUH /\QQ 01 %UDJJ/ 0DUFLD (1 0LOOHU/ -HQQLIHU $1 +LOOPDQ/ 6WHSKHQ .RSODQ/
7KHOPD -1 $VNH\ DQG 'HDQQD 7DQQHU 2NXQ1

7KH &KDLUPDQ DQG 9LFH &KDLUPDQ DUH GHVLJQDWHG E\ WKH 3UHVLGHQW DQG VHUYH D WZR²\HDU
VWDWXWRU\ WHUP1 7KH FXUUHQW &KDLUPDQ DQG 9LFH &KDLUPDQ UHVSHFWLYHO\ DUH /\QQ 01 %UDJJ
DQG 0DUFLD (1 0LOOHU ZKRVH WHUPV H[SLUH RQ -XQH 4:/ 53331 7KH &KDLUPDQ LV UHVSRQVLEOH/
ZLWKLQ VWDWXWRU\ OLPLWV/ IRU WKH DGPLQLVWUDWLYH IXQFWLRQV RI WKH &RPPLVVLRQ1

'XULQJ WKLV SHULRG/ WKHUH ZDV D FKDQJH LQ WKH FRPSRVLWLRQ RI WKH &RPPLVVLRQ1 &DURO 71
&UDZIRUG DQQRXQFHG KHU UHVLJQDWLRQ IURP WKH &RPPLVVLRQ HIIHFWLYH -DQXDU\ 6/ 53331
'HDQQD 7DQQHU 2NXQ ZDV QRPLQDWHG WR WKH &RPPLVVLRQ E\ 3UHVLGHQW &OLQWRQ RQ
1RYHPEHU 43/ 4<<</ DQG FRQILUPHG E\ WKH 8161 6HQDWH RQ 1RYHPEHU 4</ 4<<<1
&RPPLVVLRQHU 2NXQ ZDV VZRUQ LQ DV D PHPEHU RI WKH &RPPLVVLRQ RQ -DQXDU\ 6/ 5333/ IRU
D WHUP H[SLULQJ RQ -XQH 49/ 533;1

,Q )LVFDO <HDU +)<, 5333/ WKH &RPPLVVLRQ KDG 7:15 PLOOLRQ LQ DYDLODEOH IXQGV +'7718 PLOOLRQ
DSSURSULDWLRQ, DQG D VWDIILQJ SODQ IRU 6<318 SHUPDQHQW SRVLWLRQV DQG 63 WHUP SRVLWLRQV1 $OO
RI LWV HPSOR\HHV DUH ORFDWHG LQ RQH EXLOGLQJ DW 833 ( 6WUHHW/ 6:/ :DVKLQJWRQ/ '&1




                         8161 ,QWHUQDWLRQDO 7UDGH &RPPLVVLRQ


                                            9
              7+( 2)),&( 2) ,163(&725 *(1(5$/
                     KWWS=22ZZZ1XVLWF1JRY2RLJ
7KH &RPPLVVLRQ HVWDEOLVKHG WKH 2,* SXUVXDQW WR WKH 4<;; DPHQGPHQWV WR WKH ,QVSHFWRU
*HQHUDO $FW1 7KH ,QVSHFWRU *HQHUDO UHSRUWV GLUHFWO\ WR WKH &KDLUPDQ1 7KH ,QVSHFWRU
*HQHUDO LV UHVSRQVLEOH IRU GLUHFWLQJ DQG FDUU\LQJ RXW DXGLWV/ LQYHVWLJDWLRQV/ DQG LQVSHFWLRQV
UHODWLQJ WR &RPPLVVLRQ SURJUDPV DQG RSHUDWLRQV1 7KH ,QVSHFWRU *HQHUDO DOVR FRPPHQWV
DQG SURYLGHV UHFRPPHQGDWLRQV RQ SURSRVHG OHJLVODWLRQ/ UHJXODWLRQV/ DQG SURFHGXUHV DV WR
WKHLU HFRQRP\/ HIILFLHQF\ DQG HIIHFWLYHQHVV1

,Q )< 5333 WKH 2,* ZDV DOORFDWHG 618 VWDII \HDUV1 7KLV SURYLGHG IRU WZR IXOO²WLPH +,QVSHFWRU
*HQHUDO DQG D VWDII DVVLVWDQW, DQG WZR SDUW²WLPH +DWWRUQH\²DGYLVRU DQG DQ DXGLWRU,
SRVLWLRQV1


                                2IILFH RI ,QVSHFWRU *HQHUDO= 2UJDQL]DWLRQ
  )XOO0WLPH

          ,QVSHFWRU *HQHUDO




              6WDII $VVLVWDQW

                                        3DUW0WLPH

                                             $WWRUQH\ $GYLVRU                   $XGLWRU



7KH &RPPLVVLRQ DOVR DOORFDWHG ':8/333 IRU 2,* DXGLW DQG UHYLHZ VHUYLFHV IRU )< 53331




                                                                +DUROG (1 7KRPSVRQ MRLQHG
                                                                WKH 2,* VWDII DV DQ DXGLWRU RQ
                                                                6HSWHPEHU 59/ 4<<<




                                                    :
                                     $8',76

                                 $XGLW 5HSRUW /LVW


7ZR DXGLW UHSRUWV ZHUH LVVXHG GXULQJ WKLV SHULRG1 7KH\ ZHUH=
       P 5HYLHZ RI WKH &RPPLVVLRQ·V %XGJHW 'HYHORSPHQW DQG $OORFDWLRQ 3URFHVVHV
         :LWK D &RPSDULVRQ WR )LYH 6HOHFWHG 2WKHU )HGHUDO $JHQFLHV> DQG
       P $XGLW RI WKH 86,7& )LQDQFLDO 6WDWHPHQWV IRU )LVFDO <HDUV 4<<; DQG 4<<<1


$V RI 0DUFK 64/ 5333/ RQJRLQJ DXGLWV LQFOXGHG=
       P 5HYLHZ RI WKH &RPPLVVLRQ·V ,QIRUPDWLRQ 5HVRXUFHV 0DQDJHPHQW )XQFWLRQ>
       P (YDOXDWLRQ RI 3HUVRQQHO23D\UROO DQG )LQDQFLDO 6HUYLFHV 3URYLGHG WR WKH
         &RPPLVVLRQ E\ WKH 'HSDUWPHQW RI WKH ,QWHULRU> DQG
       P (YDOXDWLRQ RI 86,7& 5HFRUGV 0DQDJHPHQW1


3HQGLQJ DFWLRQV RQ WKUHH DXGLW UHSRUWV ZHUH FRPSOHWHG DQG DUH SUHVHQWHG RQ WKH IROORZLQJ
SDJHV1




                                           ;
                          6XPPDU\ RI 6LJQLILFDQW $XGLWV

      P 5HYLHZ RI WKH &RPPLVVLRQ·V %XGJHW
        'HYHORSPHQW DQG $OORFDWLRQ 3URFHVVHV
        :LWK D &RPSDULVRQ WR )LYH 6HOHFWHG 2WKHU
        )HGHUDO $JHQFLHV/ 2,*0$5035033 +)HEUXDU\ 5</ 5333,
        KWWS=22ZZZ1XVLWF1JRY2RLJ22,*0$50350331SGI




7KH REMHFWLYH RI WKLV UHYLHZ ZDV WR FRPSDUH WKH &RPPLVVLRQ·V EXGJHW GHYHORSPHQW DQG
DOORFDWLRQ SURFHVVHV ZLWK WKRVH RI VLPLODU IHGHUDO DJHQFLHV DQG WR LGHQWLI\ DUHDV IRU
LPSURYLQJ &RPPLVVLRQ SURFHVVHV1 :H IRXQG WKDW WKH SDVW EXGJHW GHYHORSPHQW SURFHVVHV
DQG SUDFWLFHV DSSHDU WR KDYH VHUYHG WKH &RPPLVVLRQ ZHOO LQ SURYLGLQJ DGHTXDWH IXQGLQJ1
+RZHYHU/ ZH IRXQG WKH ORVV RI WKH HQWLUH VWDII RI WKH %XGJHW 'LYLVLRQ UHLQIRUFHV WKH QHHG WR
SUHSDUH ZULWWHQ EXGJHW SROLFLHV DQG SURFHGXUHV1 $GGLWLRQDOO\/ ZH IRXQG WKDW WKH DFFRXQWLQJ
V\VWHP KDV QRW PHW PDQDJHPHQW·V QHHGV IRU LQIRUPDWLRQ DV WR WKH FRVWV RI SURJUDPV DQG
SURMHFWV/ QRU KDV WKH DFFRXQWLQJ GDWD EHHQ DFFHVVLEOH E\ PDQDJHUV LQ D PDQQHU ZKLFK
ZRXOG HQFRXUDJH WKH XVH RI WKH LQIRUPDWLRQ1 :H IRXQG WKH DFFRXQWLQJ V\VWHP LV FDSDEOH
RI PHHWLQJ WKLV UHTXLUHPHQW/ EXW PDQDJHUV PXVW ZRUN ZLWK WKH DFFRXQWLQJ VWDII WR GHILQH
DQG FRPPXQLFDWH WKHLU QHHGV1 2QFH FKDQJHV DUH PDGH WR DFFXPXODWH WKH GHVLUHG GDWD/
PDQDJHPHQW XVH RI WKH GDWD VKRXOG EH HQFRXUDJHG E\ PDNLQJ WKH GDWD UHDGLO\ DFFHVVLEOH1
7R DGGUHVV RXU ILQGLQJV/ ZH UHFRPPHQGHG WKDW +4, ZULWWHQ EXGJHW SROLFLHV DQG SURFHGXUHV
EH SUHSDUHG WR HQVXUH FRQWLQXLW\ LQ WKH HYHQW RI SHUVRQQHO FKDQJHV> +5, FRVW DFFRXQWLQJ
QHHGV EH LGHQWLILHG DQG DFFRXQWLQJ SURFHGXUHV PRGLILHG DFFRUGLQJO\ WR PHHW WKH PDQDJHUV·
QHHGV IRU WLPHO\/ XVHIXO DQG FRPSOHWH DFFRXQWLQJ LQIRUPDWLRQ> DQG +6, WKDW SURFHGXUHV EH
HVWDEOLVKHG WR GRZQORDG DFFRXQWLQJ GDWD IURP WKH 'HSDUWPHQW RI ,QWHULRU DFFRXQWLQJ
V\VWHP LQWR D GDWDEDVH DW WKH &RPPLVVLRQ DQG PDNH WKLV GDWD DYDLODEOH WR PDQDJHUV1




                                             <
           P $XGLW RI 86,7& )LQDQFLDO 6WDWHPHQWV IRU
             )LVFDO <HDUV 4<<; DQG 4<<</ 2,*0$5036033
             +0DUFK 57/ 5333,
             KWWS=22ZZZ1XVLWF1JRY2RLJ22,*0$50360331SGI



%DVHG RQ WKLV DXGLW/ WKH &RPPLVVLRQ·V ILQDQFLDO VWDWHPHQWV ZHUH GHWHUPLQHG WR SUHVHQW
IDLUO\/ LQ DOO PDWHULDO UHVSHFWV/ WKH EDODQFH VKHHWV DQG VWDWHPHQW RI EXGJHWDU\ UHVRXUFHV RI
WKH &RPPLVVLRQ DV RI 6HSWHPEHU 63/ 4<<; DQG 4<<</ DQG WKH UHODWHG VWDWHPHQWV RI QHW FRVW/
FKDQJHV LQ QHW SRVLWLRQ/ DQG ILQDQFLQJ IRU WKH \HDU HQGHG 6HSWHPEHU 63/ 4<<</ LQ FRQIRUPLW\
ZLWK JHQHUDOO\ DFFHSWHG DFFRXQWLQJ SULQFLSOHV1 2QO\ RQH PDWHULDO ZHDNQHVV LQ LQWHUQDO
FRQWUROV ZDV QRWHG LQ WKH DXGLW1 7KLV ZDV D QHHG IRU LPSURYHG FRQWUROV RYHU WKH UHFRUGLQJ
RI DFFRXQWV UHFHLYDEOH1 7HVW UHVXOWV GLVFORVHG QR LQVWDQFHV RI QRQFRPSOLDQFH ZLWK ODZV DQG
UHJXODWLRQV DSSOLFDEOH WR WKH &RPPLVVLRQ WKDW ZRXOG KDYH D PDWHULDO HIIHFW RQ WKH ILQDQFLDO
VWDWHPHQWV1
:H PDGH WKUHH VLJQLILFDQW UHFRPPHQGDWLRQV=
       P 6WDQGDUGL]H WKH IRUP DQG FRQWHQW RI EODQNHW SXUFKDVH DJUHHPHQW FDOO UHFRUGV
         DQG PDNH WKHP DYDLODEOH RQ WKH ORFDO DUHD QHWZRUN IRU UHDG RQO\ DFFHVV E\
         FRQWUDFW VSHFLDOLVW DQG ILQDQFH SHUVRQQHO>
       P 5HTXLUH WKH FDOO UHFRUGV EH UHYLHZHG E\ FRQWUDFW VSHFLDOLVWV RQ D UHJXODU EDVLV
         WR HQVXUH FRPSOLDQFH ZLWK )$5 DQG WHUPV RI WKH EODQNHW SXUFKDVH
         DJUHHPHQWV>
       P 'LUHFW 2)% WR XVH FDOO UHFRUGV DV WKH EDVLV IRU UHFRUGLQJ REOLJDWLRQV IRU
         EODQNHW SXUFKDVH DJUHHPHQWV DQG RWKHU LQGHILQLWH GHOLYHU\ DJUHHPHQWV XSRQ
         LPSOHPHQWLQJ WKH SUHYLRXV WZR UHFRPPHQGDWLRQV1




                                            43
                              $XGLW )ROORZ08S
3HQGLQJ DFWLRQV RQ WZR DXGLWV ZHUH FRPSOHWHG1
$XGLW RI WKH 86,7& )LQDQFLDO 6WDWHPHQWV IRU )LVFDO <HDUV 4<<: DQG 4<<;/ $XGLW
5HSRUW/ 2,*0$50370<< +0DUFK 64/ 4<<<,1
KWWS=22ZZZ1XVLWF1JRY2RLJ2 2,*0$50370<<1SGI1
0DQDJHPHQW DJUHHPHQW ZDV UHDFKHG RQ 0DUFK 64/ 4<<<1
%DVHG RQ RXU ILQGLQJV ZH PDGH WKH IROORZLQJ UHFRPPHQGDWLRQV=
      P 3URYLGH IRU ERWK WKH 2IILFH RI )LQDQFH DQG %XGJHW DQG WKH 3URSHUW\
        0DQDJHPHQW 2IILFHU WR UHFRUG DGGLWLRQV DQG GHOHWLRQV DV WKH\ RFFXU1
      P (QVXUH WKDW ILQDQFLDO DQG LQYHQWRU\ UHFRUGV RI IL[HG DVVHWV DUH UHFRQFLOHG DW
        OHDVW DQQXDOO\ DV UHTXLUHG E\ 86,7& 'LUHFWLYH 6883161
      P 5HTXLUH DQ DQQXDO SK\VLFDO LQYHQWRU\ RI IL[HG DVVHWV1
      P (QVXUH WKDW DFFRXQWV UHFHLYDEOH DUH UHFRUGHG IRU WKH DPRXQWV GXH WR EH
        FROOHFWHG1
      P 3HULRGLFDOO\ REWDLQ DQG DQDO\]H VHFXULW\ YLRODWLRQ UHSRUWV IURP '2,1
      P 'HYHORS D FRQWLQJHQF\ SODQ DGHTXDWH WR WKH ULVNV DVVRFLDWHG ZLWK WKH
        ILQDQFLDO DQG SHUVRQQHO V\VWHPV RI 86,7&1
$OO DJUHHG XSRQ DFWLRQV ZHUH FRPSOHWHG RQ 2FWREHU 7/ 4<<<1
(YDOXDWLRQ RI WKH &RPPLVVLRQ·V 3UHSDUDWLRQ IRU WKH <HDU 5333/ $XGLW 5HSRUW/ 2,*
$50360<< +)HEUXDU\ </ 4<<<,1 KWWS=22ZZZ1XVLWF1JRY2RLJ22,*²$5²36²<<1SGI DQG
6HFRQG )ROORZ0XS 5HYLHZ RI &RPPLVVLRQ·V 3UHSDUDWLRQ IRU WKH <HDU 5333/ ,QVSHFWLRQ
5HSRUW/ 2,*0,5034033 +1RYHPEHU 56/ 4<<<,1 KWWS=22ZZZ1XVLWF1JRY2RLJ22,*0,50340331SGI
7KH UHFRPPHQGDWLRQV RI WKHVH UHSRUWV GHDOW ZLWK WKH &RPPLVVLRQ·V SUHSDUDWLRQV RI
LQIRUPDWLRQ WHFKQRORJ\ V\VWHPV IRU WKH <5. GDWH FKDQJH1 7KH &RPPLVVLRQ VXFFHVVIXOO\
LPSOHPHQWHG DOO RI WKH 2,* UHFRPPHQGDWLRQV1
7KH &RPPLVVLRQ·V V\VWHPV IDFHG QR GLVUXSWLRQV UHODWHG WR WKH <5. GDWH FKDQJH1
5HYLHZ RI WKH &RPPLVVLRQ 0HWKRGV 8VHG WR &RPSRVH 3XEOLFDWLRQV/ $XGLW
5HSRUW/ 2,*0$50350<< +'HFHPEHU 57/ 4<<;,1
KWWS=22ZZZ1XVLWF1JRY2RLJ22,*²$5²35²<<1SGI
0DQDJHPHQW DJUHHPHQW ZDV UHDFKHG RQ 'HFHPEHU 57/ 4<<;1 7KH &RPPLVVLRQ LVVXHG
'LUHFWLYH 6534 RQ 1RYHPEHU 4/ 4<<</ ZKLFK LPSOHPHQWHG RXU PRVW VLJQLILFDQW
UHFRPPHQGDWLRQV PDGH SXUVXDQW WR WKH ILQGLQJV RI WKLV $XGLW UHSRUW1

                                         44
                                ,163(&7,216

                              ,QVSHFWLRQ 5HSRUW /LVW
'XULQJ WKLV SHULRG WZR LQVSHFWLRQ UHSRUWV ZHUH LVVXHG1

       P 6HFRQG )ROORZ0XS 5HYLHZ RI &RPPLVVLRQ·V 3UHSDUDWLRQ IRU WKH <HDU 5333/
         ,QVSHFWLRQ 5HSRUW 1R1 2,*0,5034033 +1RYHPEHU 56/ 4<<<,> DQG

       P &RVW %HQHILW $QDO\VLV RI (PSOR\HH 7UDQVSRUWDWLRQ 6XEVLGLHV/
         ,QVSHFWLRQ 5HSRUW 1R1 2,*0,5035033 +'HFHPEHU 49/ 4<<<,1


                      6XPPDU\ RI 6LJQLILFDQW ,QVSHFWLRQV
&RVW %HQHILW $QDO\VLV RI (PSOR\HH 7UDQVSRUWDWLRQ 6XEVLGLHV/ ,QVSHFWLRQ 5HSRUW
2,*0,5035033 +'HFHPEHU 49/ 4<<<,1 KWWS=22ZZZ1XVLWF1JRY2RLJ22,*0,50350331SGI 7KH
REMHFWLYH RI WKLV LQVSHFWLRQ ZDV WR GHILQH DQG HYDOXDWH DOWHUQDWLYHV IRU WUDQVSRUWDWLRQ
VXEVLGLHV WKDW WKH &RPPLVVLRQ PD\ FRQVLGHU LPSOHPHQWLQJ XQGHU FXUUHQW IHGHUDO ODZV1

7KH 2,* VXJJHVWHG WKDW WKH &RPPLVVLRQ=

       41 0RGLI\ WKH PDVV WUDQVLW VXEVLG\ SURJUDP WR DOORZ D SUH0WD[ GHGXFWLRQ
          WUDQVSRUWDWLRQ EHQHILW XS WR WKH PD[LPXP DOORZDEOH UDWH +SUHVHQWO\ '982PR,
          OHVV DQ\ FDVK VXEVLG\ WKH &RPPLVVLRQ PD\ HOHFW WR SURYLGH LQ WKH IRUP RI IDUH
          FDUGV>

       51 (VWDEOLVK D SDUNLQJ VXEVLG\ SURJUDP WR DOORZ D SUH0WD[ GHGXFWLRQ
          WUDQVSRUWDWLRQ EHQHILW IRU GHVLJQDWHG SDUNLQJ XS WR WKH PD[LPXP DOORZDEOH
          UDWH +SUHVHQWO\ +'4:82PR, OHVV DQ\ FDVK VXEVLG\ WKH &RPPLVVLRQ PD\ HOHFW WR
          SURYLGH> DQG

       61 'HVLJQDWH TXDOLILHG SDUNLQJ WR EH VXEVLGL]HG XQGHU VXJJHVWLRQ 5 DV=

          D1 3DUNLQJ RQ RU QHDU D ORFDWLRQ IURP ZKLFK DQ HPSOR\HH FRPPXWHV WR ZRUN
             YLD PDVV WUDQVLW RU D FDU SRRO

          E1 &DU SRRO SDUNLQJ DW RU QHDU WKH &RPPLVVLRQ

7KH &RPPLVVLRQ LV DFWLYHO\ HQJDJHG LQ QHJRWLDWLRQV ZLWK $)*( /RFDO 5544 WR HIIHFWLYHO\
LPSOHPHQW VRPH RI WKH VXJJHVWLRQV FRQWDLQHG LQ WKLV ,QVSHFWLRQ 5HSRUW1

                                          45
                              ,19(67,*$7,216

                          6XPPDU\ RI ,QYHVWLJDWLYH $FWLYLW\
$ VXPPDU\ RI LQYHVWLJDWLYH DFWLYLW\ LV SUHVHQWHG EHORZ1



      &DVH :RUNORDG                  5HIHUUDOV 3URFHVVHG        ,QYHVWLJDWLYH 5HVXOWV
 2SHQ +43242<<,       3       5HFHLYHG                  6      5HIHUUDO IRU
                                                               3URVHFXWLRQ              4
 ,QLWLDWHG            4       ,QLWLDWHG ,QYHVWLJDWLRQ   4
                                                               5HIHUUDOV 'HFOLQHG
 &ORVHG               4       5HIHUUHG WR                      IRU 3URVHFXWLRQ          4
                              &RPPLVVLRQ                3
 2SHQ 6264233         3                                        $GPLQLVWUDWLYH
                              (YDOXDWHG EXW 1R                 $FWLRQ                   3
                              ,QYHVWLJDWLRQ
                              ,QLWLDWHG                 5




'XULQJ WKLV UHSRUWLQJ SHULRG/ RQH FDVH ZDV LQLWLDWHG DQG FORVHG1 7KH FORVHG FDVH LQYROYHG
GHIDFHPHQW RI WKH &RPPLVVLRQ·V :HE 6LWH DQG LV GHVFULEHG EHORZ1


,QYHVWLJDWLRQ RI WKH 'HIDFHPHQW RI WKH &RPPLVVLRQ·V +RPH 3DJH
7KH 2,* FRPSOHWHG DQ LQYHVWLJDWLRQ ZLWK WKH )HGHUDO %XUHDX RI ,QYHVWLJDWLRQ RI WZR
KDFNHU DWWDFNV RQ WKH &RPPLVVLRQ·V ZHE VLWH1 $ KDFNHU H[SORLWHG D VHFXULW\ YXOQHUDELOLW\
LQ WKH &RPPLVVLRQ·V ZHE VLWH DQG GHIDFHG WKH &RPPLVVLRQ·V +RPH SDJH1 7KH KDFNHU
DOOHJHGO\ PDGH VLPLODU DWWDFNV RQ DW OHDVW QLQH RWKHU JRYHUQPHQW ZHE VLWHV1 &RPPLVVLRQ
SHUVRQQHO ZHUH DEOH WR UHVWRUH WKH &RPPLVVLRQ·V +RPH SDJH ZLWKLQ PLQXWHV/ DQG WKH\
VXEVHTXHQWO\ LQVWDOOHG D SDWFK WR DGGUHVV WKH VHFXULW\ YXOQHUDELOLW\1 7KH FDVH ZDV UHIHUUHG
WR WKH 8161 $WWRUQH\/ ZKR GHFOLQHG WR SURVHFXWH1 7KH LQYHVWLJDWLRQ ZDV VXEVHTXHQWO\ FORVHG1




                                               46
                           27+(5 $&7,9,7,(6

5HJXODWRU\ 5HYLHZ
7KH ,QVSHFWRU *HQHUDO $FW/ 8 8161&1 $SS1 6/ 6HFWLRQ 7+D,+5,/ UHTXLUHV WKH 2,* WR UHYLHZ
H[LVWLQJ DQG SURSRVHG OHJLVODWLRQ DQG UHJXODWLRQV DQG WR PDNH UHFRPPHQGDWLRQV
FRQFHUQLQJ WKH LPSDFW RI VXFK OHJLVODWLRQ RU UHJXODWLRQV RQ WKH HFRQRP\ DQG HIILFLHQF\ RI
SURJUDPV DQG RSHUDWLRQV DGPLQLVWHUHG E\ WKH &RPPLVVLRQ1
2,* HYDOXDWHV WKH LPSDFW WKDW QHZ RU UHYLVHG SURFHGXUHV ZLOO KDYH RQ WKH HFRQRP\ DQG
HIILFLHQF\ RI SURJUDPV DQG RSHUDWLRQV1 2,* UHYLHZHG DQG FRPPHQWHG RQ VHYHUDO GUDIW
LQWHUQDO GLUHFWLYHV1 7KH &RPPLVVLRQ LVVXHG 'LUHFWLYHV RQ PLVVLRQ DQG IXQFWLRQV VWDWHPHQWV
IRU WKH 2IILFHV RI $GPLQLVWUDWLRQ/ )DFLOLWLHV 0DQDJHPHQW/ DQG 3XEOLVKLQJ/ DOWHUQDWLYH
GLVSXWH UHVROXWLRQ/ JXLGHOLQHV IRU FRPSRVLQJ DQG SXEOLVKLQJ 8161 ,QWHUQDWLRQDO 7UDGH
&RPPLVVLRQ SXEOLFDWLRQV/ DQG LQLWLDWLRQ DQG SXEOLFDWLRQ RI VWDII UHVHDUFK1


*HQHUDO $FFRXQWLQJ 2IILFH +*$2,
7KH ,QVSHFWRU *HQHUDO $FW VWDWHV WKDW HDFK ,QVSHFWRU *HQHUDO VKDOO JLYH SDUWLFXODU UHJDUG
WR WKH DFWLYLWLHV RI WKH &RPSWUROOHU *HQHUDO RI WKH 8QLWHG 6WDWHV ZLWK D YLHZ WRZDUG
DYRLGLQJ GXSOLFDWLRQ DQG HQVXULQJ HIIHFWLYH FRRUGLQDWLRQ DQG FRRSHUDWLRQ1
'XULQJ WKLV SHULRG/ *$2 LVVXHG D UHSRUW HQWLWOHG ´6WUDWHJ\ 1HHGHG WR %HWWHU 0RQLWRU DQG
(QIRUFH 7UDGH $JUHHPHQWVµ +*$2016,$'0330:9,/ 0DUFK 53331 7KH &RPPLVVLRQ ZDV
PHQWLRQHG LQ WKLV UHSRUW EHFDXVH LW SDUWLFLSDWHV LQ )HGHUDO WUDGH DJUHHPHQW PRQLWRULQJ DQG
HQIRUFHPHQW HIIRUWV1 7KH UHSRUW LQFOXGHG QR VSHFLILF UHFRPPHQGDWLRQV WR WKH &RPPLVVLRQ1
7KH PDLQ UHFRPPHQGDWLRQ RI WKLV UHSRUW ZDV WKDW WKH 8161 7UDGH 5HSUHVHQWDWLYH/ WKH
6HFUHWDU\ RI &RPPHUFH/ DQG WKH 6HFUHWDU\ RI $JULFXOWXUH/ LQ FRQVXOWDWLRQ ZLWK RWKHU
UHOHYDQW DJHQFLHV/ GHYHORS D VWUDWHJ\ IRU KRZ WKH 8161 *RYHUQPHQW ZLOO PDQDJH LWV JURZLQJ
WUDGH DJUHHPHQW PRQLWRULQJ DQG HQIRUFHPHQW ZRUNORDG1




                                           47
/LDLVRQ $FWLYLWLHV

7KH $FWLQJ ,QVSHFWRU *HQHUDO LV DQ DFWLYH PHPEHU RI WKH
,QVSHFWRU *HQHUDO FRPPXQLW\1 +H LV D PHPEHU RI WKH
([HFXWLYH &RXQFLO RQ ,QWHJULW\ DQG (IILFLHQF\ +(&,(,/
ZKLFK FRQVLVWV SULPDULO\ RI WKH ,QVSHFWRUV *HQHUDO DW
WKH 67 GHVLJQDWHG IHGHUDO HQWLWLHV1 +H DOVR SDUWLFLSDWHV
LQ DFWLYLWLHV VSRQVRUHG E\ WKH 3UHVLGHQW·V &RXQFLO RQ ,Q0
WHJULW\ DQG (IILFLHQF\ +3&,(,/ ZKLFK FRQVLVWV SULPDULO\
RI WKH 3UHVLGHQWLDOO\²DSSRLQWHG ,QVSHFWRUV *HQHUDO1
7KH (&,( DQG 3&,( KDYH LGHQWLFDO IXQFWLRQV DQG UH0
VSRQVLELOLWLHV WR SURPRWH LQWHJULW\ DQG HIILFLHQF\ DQG WR
GHWHFW DQG SUHYHQW IUDXG/ ZDVWH/ DQG DEXVH LQ )HGHUDO
SURJUDPV1




                                            48
             5(3257,1* 5(48,5(0(176 ,1'(;
7KH ,QVSHFWRU *HQHUDO $FW RI 4<:;/ DV DPHQGHG +4<;;,/ VSHFLILHV UHSRUWLQJ UHTXLUHPHQWV
IRU VHPLDQQXDO UHSRUWV1
&,7$7,21           5(3257,1* 5(48,5(0(176                                           3$*(
6HFWLRQ 7+D,+5,    5HFRPPHQGDWLRQV FRQFHUQLQJ WKH LPSDFW RI VXFK OHJLVODWLRQ          47
                   RU UHJXODWLRQV RQ WKH HFRQRP\ DQG HIILFLHQF\ LQ WKH
                   DGPLQLVWUDWLRQ RI SURJUDPV DQG RSHUDWLRQV DGPLQLVWHUHG RU
                   ILQDQFHG E\ WKH &RPPLVVLRQ
6HFWLRQ 8+D,+4,    'HVFULSWLRQ RI VLJQLILFDQW SUREOHPV/ DEXVHV/ DQG GHILFLHQFLHV    1RQH
                   UHODWLQJ WR WKH DGPLQLVWUDWLRQ RI SURJUDPV DQG RSHUDWLRQV
6HFWLRQ 8+D,+5,    'HVFULSWLRQ RI WKH UHFRPPHQGDWLRQV IRU FRUUHFWLYH DFWLRQ          ;045
                   PDGH ZLWK UHVSHFW WR VLJQLILFDQW SUREOHPV/ DEXVHV/ RU
                   GHILFLHQFLHV
6HFWLRQ 8+D,+6,    ,GHQWLILFDWLRQ RI HDFK VLJQLILFDQW UHFRPPHQGDWLRQ GHVFULEHG      1RQH
                   LQ SUHYLRXV VHPLDQQXDO UHSRUWV RQ ZKLFK FRUUHFWLYH DFWLRQ KDV
                   QRW EHHQ FRPSOHWHG
6HFWLRQ 8+D,+7,    6XPPDU\ RI PDWWHUV UHIHUUHG WR SURVHFXWLYH DXWKRULWLHV DQG         46
                   WKH SURVHFXWLRQV DQG FRQYLFWLRQV ZKLFK KDYH UHVXOWHG
6HFWLRQ 8+D,+8,    6XPPDU\ RI HDFK UHSRUW PDGH WR WKH KHDG RI WKH                   1RQH
                   HVWDEOLVKPHQW XQGHU ZKLFK LQIRUPDWLRQ RU DVVLVWDQFH ZDV
                   XQUHDVRQDEO\ UHIXVHG
6HFWLRQ 8+D,+9,    /LVWLQJ RI HDFK DXGLW UHSRUW                                      ;043
6HFWLRQ 8+D,+:,    6XPPDU\ RI HDFK VLJQLILFDQW UHSRUW                                ;045
6HFWLRQ 8+D,+;,    6WDWLVWLFDO WDEOHV VKRZLQJ $XGLW 5HSRUWV04XHVWLRQHG &RVWV          4:
6HFWLRQ 8+D,+<,    6WDWLVWLFDO WDEOHV VKRZLQJ $XGLW 5HSRUWV0)XQGV 3XW WR %HWWHU       4;
                   8VH
6HFWLRQ 8+D,+43,   6XPPDU\ RI HDFK DXGLW UHSRUW LVVXHG EHIRUH WKH                   1RQH
                   FRPPHQFHPHQW RI WKH UHSRUWLQJ SHULRG IRU ZKLFK QR
                   PDQDJHPHQW GHFLVLRQ KDV EHHQ PDGH E\ WKH HQG RI WKH
                   UHSRUWLQJ SHULRG
6HFWLRQ 8+D,+44,   'HVFULSWLRQ DQG H[SODQDWLRQ RI WKH UHDVRQV IRU DQ\ VLJQLILFDQW   1RQH
                   UHYLVHG PDQDJHPHQW GHFLVLRQV
6HFWLRQ 8+D,+45,   ,QIRUPDWLRQ FRQFHUQLQJ DQ\ VLJQLILFDQW PDQDJHPHQW GHFLVLRQ       1RQH
                   ZLWK ZKLFK WKH ,QVSHFWRU *HQHUDO LV LQ GLVDJUHHPHQW




                                                  49
                        7DEOH 4
            5(32576 :,7+ 48(67,21(' &2676
                                                             'ROODU 9DOXH

                                     1XPEHU RI   4XHVWLRQHG          8QVXSSRUWHG
                                       5HSRUWV        &RVWV                &RVWV

$1   )RU ZKLFK QR PDQDJHPHQW
     GHFLVLRQ KDV EHHQ PDGH
     E\ WKH FRPPHQFHPHQW RI
     WKH SHULRG                             3            3                    3

%1   :KLFK ZHUH LVVXHG GXULQJ
     WKH UHSRUWLQJ SHULRG                   3            3                    3

     6XEWRWDOV +$.%,                        3            3                    3

&1   )RU ZKLFK D PDQDJHPHQW
     GHFLVLRQ ZDV PDGH GXULQJ
     WKH UHSRUWLQJ SHULRG                   3            3                    3

     +L,     'ROODU YDOXH RI
             GLVDOORZHG FRVWV               3            3                    3

     +LL,    'ROODU YDOXH RI FRVWV
             QRW GLVDOORZHG                 3            3                    3

'1   )RU ZKLFK QR PDQDJHPHQW
     GHFLVLRQ KDV EHHQ PDGH E\
     WKH HQG RI WKH UHSRUWLQJ
     SHULRG                                 3            3                    3

(1   5HSRUWV IRU ZKLFK QR
     PDQDJHPHQW GHFLVLRQ
     ZDV PDGH ZLWKLQ VL[
     PRQWKV RI LVVXDQFH                     3            3                    3




                                      4:
                    7DEOH 5
     5(32576 :,7+ 5(&200(1'$7,216 7+$7
          )81'6 %( 387 72 %(77(5 86(
                                                         1XPEHU RI   'ROODU
                                                           5HSRUWV    9DOXH

$1   )RU ZKLFK QR PDQDJHPHQW GHFLVLRQ KDV EHHQ PDGH
     E\ WKH FRPPHQFHPHQW RI WKH SHULRG                          3        3

%1   :KLFK ZHUH LVVXHG GXULQJ WKH UHSRUWLQJ SHULRG              3        3


             6XEWRWDOV +$.%,                                    3        3

&1   )RU ZKLFK D PDQDJHPHQW GHFLVLRQ ZDV PDGH
     GXULQJ WKH UHSRUWLQJ SHULRG                                3        3

     +L,     'ROODU YDOXH RI UHFRPPHQGDWLRQV WKDW ZHUH
             DJUHHG WR E\ PDQDJHPHQW                            3        3

     +LL,    'ROODU YDOXH RI UHFRPPHQGDWLRQV WKDW ZHUH
             QRW DJUHHG WR E\ PDQDJHPHQW                        3        3

'1   )RU ZKLFK QR PDQDJHPHQW GHFLVLRQ KDV EHHQ PDGH
     E\ WKH HQG RI WKH UHSRUWLQJ SHULRG                         3        3

(1   5HSRUWV IRU ZKLFK QR PDQDJHPHQW GHFLVLRQ ZDV PDGH
     ZLWKLQ VL[ PRQWKV RI LVVXDQFH                              3        3




                                                4;
    6SHFLDO WKDQNV WR WKH 2IILFH RI 3XEOLVKLQJ
        IRU WKH SURGXFWLRQ RI WKLV UHSRUW=

     .HYHQ %ODNH= &RYHU GHVLJQ DQG SKRWRJUDSK\

3DPHOD '\VRQ= 5HSRUW GHVLJQ DQG FRPSRVLWLRQ VHUYLFHV

      3ULQWLQJ 2SHUDWLRQV= 5HSURGXFWLRQ VHUYLFH




                        4<
  ,I \RX VXVSHFW )UDXG/ :DVWH/ $EXVH/ RU RWKHU PLVFRQGXFW DW WKH
       ,QWHUQDWLRQDO 7UDGH &RPPLVVLRQ/ SOHDVH FRQWDFW XV DW=

                      ,*+RWOLQH#XVLWF1JRY
                              RU
                  (WKLFV/LQH 400;3300833003666
                              RU
              KWWS=22ZZZ1XVLWF1JRY2RLJ2RLJKRW1KWP

7KH (WKLFV/LQH LV DYDLODEOH 57 KRXUV SHU GD\1 7KH FDOOHU FDQ UHPDLQ
  DQRQ\PRXV1 ,I \RX SUHIHU/ \RX PD\ VHQG ZULWWHQ FRPSODLQWV WR=

            8161 ,QWHUQDWLRQDO 7UDGH &RPPLVVLRQ
                  2IILFH RI ,QVSHFWRU *HQHUDO
                            5RRP 848
                       833 ( 6WUHHW/ 61:1
                    :DVKLQJWRQ/ '& 53769

)HGHUDO HPSOR\HHV DUH SURWHFWHG IURP UHSULVDO XQGHU WKH SURYLVLRQV
RI WKH :KLVWOHEORZHU 3URWHFWLRQ $FW RI 4<;<1 )RU PRUH LQIRUPDWLRQ/
 VHH WKH 063% SXEOLFDWLRQ HQWLWOHG ´4XHVWLRQV DQG $QVZHUV $ERXW
  :KLVWOHEORZHU $SSHDOVµ/ ZKLFK LV DYDLODEOH LQ WKH 0DLQ /LEUDU\/
               WKH 2IILFH RI 3HUVRQQHO/ DQG WKH 2,*1
